DOE F 1325.8

(08-93)
United States Government                                                            Department of Energy


Memorandum
          DATE:   July 8, 2011                                                 Report Number: INS-L-11-02
  REPLY TO
   ATTN OF:       IG-40 (S10IS001)
  SUBJECT:        Letter Report on "Implementation of Nuclear Weapons Quality Assurance Requirements
                  at Los Alamos National Laboratory"
            TO:   Manager, Los Alamos Site Office

                  INTRODUCTION AND OBJECTIVE

                  The National Nuclear Security Administration's (NNSA) Los Alamos National Laboratory
                  (Los Alamos) is a multidisciplinary research and production institution responsible for the
                  design and production of nuclear weapons components. In its effort to attain the highest
                  quality in weapons engineering design and manufacturing, the Department of Energy
                  (Department) established the DOE/NNSA Weapon Quality Policy (QC-1). This policy
                  requires NNSA and its contractors to establish processes to detect and prevent quality
                  problems. This policy also requires that items, services and processes that do not meet
                  established requirements be identified, controlled and corrected. To that end, NNSA and Los
                  Alamos conduct surveys to help ensure that problems are identified and corrected.

                  Previous Office of Inspector General reports have identified problems with quality assurance
                  processes at the Department's National Laboratories. Specifically, our Audit Report on
                  Nuclear Safety: Safety Basis and Quality Assurance at the Los Alamos National Laboratory
                  (DOE/IG-0837, August 2010), found that management had not focused sufficient attention
                  on implementing the nuclear safety Quality Assurance Program throughout the Laboratory.
                  In addition, our Inspection Report on Issues Relating to the Production of Components for
                  the W76 Weapon System at Sandia National Laboratory-New Mexico, (Inspection Summary
                  Report, November 2008), found problems with the execution of established policies and
                  procedures in the procurement, contract management and quality assurance processes
                  associated with Sandia National Laboratory–New Mexico's nuclear weapons products.

                  Because of past issues and the importance of having effective quality management systems,
                  we initiated this inspection to determine if QC-1 requirements were being appropriately
                  applied within Los Alamos' nuclear weapons programs.

                  CONCLUSIONS AND OBSERVATIONS

                  Our inspection did not identify any material concerns with Los Alamos' quality management
                  system. For the quality assurance component and process surveys we reviewed, we
                  specifically noted that officials took action to develop and implement corrective actions
                  designed to correct specific issues. We did, however, identify a potential opportunity to
                  improve the effectiveness of the program. Specifically, we found that Los Alamos may not
have focused on identifying and evaluating the cause or causes of frequently cited
weaknesses related to certain design and production activities. Therefore, additional effort
may be needed to determine whether weaknesses reported in the surveys are systemic in
nature.

During the course of our inspection, alleged problems with reviews of weapons design
changes and a lack of quality assurance focus over non-pit production activities were brought
to our attention. We were, however, unable to substantiate those allegations.

                           Potential Systemic Findings in Surveys

While individual survey findings were commonly brought to the attention of Los Alamos
officials and corrective actions were developed, additional effort may be needed to determine
whether weaknesses reported in quality assurance component and process surveys are
systemic in nature. Our testing of NNSA and Los Alamos quality assurance component and
process surveys revealed that 27 of 30 surveys, conducted between Fiscal Years 2007
through 2009, contained 136 findings. The surveys examined a number of design and
production related activities, including the continuous evaluation of portions of pit, detonator
and Joint Test Assembly processes and procedures. Of the 136 findings, 50 were similar to
findings identified previously and could generally be grouped under four major quality
management topical areas. The four areas, including survey results, were:

    1. Instructions, Procedures and Drawings. The survey results cited 20 instances of
       inappropriately performing procedures, and missing and/or excluding required
       information;

    2. Training. There were 11 instances of incomplete and/or missing operator and
       support staff instruction and records;

    3. Document Control. The surveys identified 10 instances of missing signatures,
       applicable references and guidance; and,

    4. Inspection, Test and Acceptance. There were 9 instances of missing waiver
       references, untimely calibration of measurement equipment and specifications not
       being checked.

As part of our inspection, we also reviewed a sample of quality assurance and work
instruction documents, such as Pit Manufacturing Detail Operating Procedures and Pit
Manufacturing Work Instructions. These documents described Los Alamos production and
design agency activities. We determined that two of the seven documents we reviewed
contained errors similar to the survey findings just noted. Examples of the errors we
identified included references to the wrong paragraph numbers in a work instruction and
references to an inappropriate Sigma designation. Sigmas are subsets of nuclear weapon
information classified under the Atomic Energy Act and control access to certain categories
of classified information.



                                         2
Recurring deficiencies are potential indicators of systemic failure of the quality management
system. QC-1 requires that procedures be established and implemented to: identify and
categorize conditions adverse to quality; track, trend and report conditions adverse to quality;
perform causal analysis of significant conditions adverse to quality; and, capture and
communicate lessons learned internally to NNSA for use in preventing problems and making
improvements.

As identified in our Audit Report on Nuclear Safety: Safety Basis and Quality Assurance at
the Los Alamos National Laboratory (DOE/IG-0837, August 2010), Los Alamos initiated
actions to "drive" quality assurance implementation throughout the Laboratory. Specifically,
in March 2010, Los Alamos established a Quality Assurance Implementation Council
composed of senior Laboratory managers from each of its major operations organizations to
focus on quality assurance issues. Our report noted that, although it had not completed its
work, the Quality Assurance Implementation Council had identified a number of actions
needed to fully implement quality assurance throughout the Laboratory, citing the need to
increase quality assurance resources, training and use of trending resources to identify and
correct quality assurance problems.

Consistent with the establishment of the Quality Assurance Implementation Council and its
efforts to fully implement quality assurance throughout the Laboratory, further action may be
needed to reduce the frequency of the survey findings noted previously and to identify
opportunities for process improvement. We believe that this may be achieved by following
established QC-1 requirements. Management agreed that the Site Office Manager and the
Los Alamos Site Office Quality Assurance Manager should continue efforts to fully
implement quality assurance throughout the Laboratory and ensure that Los Alamos
performs causal analysis of the frequently cited weaknesses in survey findings.

                            Implementation of QC-1 Requirements

During the course of our inspection, concerns were raised about implementing certain QC-1
requirements; however, we found no evidence to substantiate these concerns. The three areas
of concern and our findings in each included:

       Changes in weapon system design were being made without appropriate quality
       reviews. Our review found that the specific changes we tested were reviewed and
       approved by the cognizant National Laboratory. Specifically, representatives of the
       National Laboratories briefed and submitted documentation on changes to the
       appropriate Department of Defense Design Review and Acceptance Group (Group) as
       required. The Group then reviewed and approved the documentation, and the
       National Laboratories recorded the acceptance of the changes in a weapon systems
       design publication. While we did not evaluate the quality of the review and approval
       process, design changes appeared to have been routinely reviewed and approved
       before the changes were implemented.

       The Quality Assurance Surveillance process was divided between two organizations:
       the Quality Assurance Division and the Weapons Systems Engineering Division. A

                                         3
       certain official commented that the division in responsibilities could affect the
       interpretation and understanding of applicable directives. We found, however, that
       the current Los Alamos division of responsibilities did not violate the basic
       requirements of QC-1 which allow for more than one organization to be involved in
       QC-1 activities as long as the responsibilities are clearly documented.

       NNSA's and Los Alamos' quality assurance efforts were primarily focused on
       manufacturing of nuclear pits. Although the Site Office and Los Alamos focused
       substantial effort on the quality of the pit manufacturing process, we confirmed
       (through interviews and reviews of surveys) that the quality assurance efforts of both
       organizations have included other components, such as detonators and Joint Test
       Assemblies.

SUGGESTED ACTION

In addition to identifying corrective actions on individual findings in major quality
management topical areas, further action may be needed to reduce the frequency of the
survey findings and to identify opportunities for improving the quality management process.
Therefore, we suggest that the Manager, Los Alamos Site Office, and the Quality Assurance
Manager, Los Alamos Site Office, continue to fully implement quality assurance throughout
the Laboratory and ensure that Los Alamos addresses recurring deficiencies consistent with
the requirements of QC-1.

Since we are not making any recommendations in this report, a response is not required.

We appreciated the cooperation we received from your staff during our inspection. If you
have any questions concerning this inspection, please contact Mr. Richard W. Curran,
Director, Western Inspection Region, Office of Inspections, at (505) 845-5153.




                                       Sandra D. Bruce
                                       Assistant Inspector General
                                         for Inspections
                                       Office of Inspector General

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff




                                        4
                                                                                 Attachment


OBJECTIVE, SCOPE AND METHODOLOGY

Because of past issues and the importance of having effective quality management systems, we
initiated this inspection to determine if DOE/NNSA Weapon Quality Policy requirements were
being appropriately applied within the Los Alamos National Laboratory (Los Alamos) nuclear
weapons programs.

This inspection was performed between October 2009 and October 2010, at the National
Nuclear Security Administration's (NNSA) Los Alamos. To accomplish the objective of the
inspection, we:

         Reviewed applicable Department of Energy, NNSA, and site specific policies and
         procedures that provide requirements for quality assessment of Los Alamos' nuclear-
         related component production functions, to include the Weapon Quality Assurance
         Program, Production Agency, Revision D, and Los Alamos Design Agency Weapon
         Quality Assurance Program;

         Toured four production facilities at Los Alamos;

         Reviewed internal Los Alamos production-related documents;

         Reviewed external Los Alamos Site Office administrative documents;

         Reviewed external NNSA production documents;

         Interviewed key personnel located at the NNSA Service Center and Los Alamos Site
         Office, and contractor officials and employees at Los Alamos regarding quality
         assurance activities; and,

         Reviewed 30 NNSA and Los Alamos quality assurance component and process
         surveys conducted between Fiscal Years 2007 through 2009.

 This inspection was conducted in accordance with the Council of the Inspectors General on
 Integrity and Efficiency, Quality Standards for Inspections, issued by the President's
 Council on Integrity and Efficiency, January 2005. Because our review was limited, it
 would not necessarily have disclosed all internal control deficiencies that may have existed
 at the time of our inspection.

 Management waived the Exit Conference.




                                        5
                                                                     IG Report No. INS-L-11-02


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


             If you wish to discuss this report or your comments with a staff member
         of the Office of Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
